                                           NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                   CLOSEOUT MEMORANDUM

TO: AlGI       I                       5
                   File Number: 194090015                                   1   Date: 12 March 2002

Subject: Closeout Memo                                                                  Page 1 of 1


      There was no closeout written at the time this case was closed. The following information was
      extracted from the file in conformance with 'standard closeout documents.

      Our office was informed that the subject' was alleged to have circulated chain letters to an NSF
      academic reviewer and NSF staff. Warnings were issued.

      Accordingly this case is closed.




                    Prepared by:                    Cleared by:

                   Agent:          Attorney:      Supervisor:     AIGI
   Name:



 Signature &
    date:
